           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       THE SOCIAL SECURITY
         ADMINISTRATION’S
        INDEPENDENCE DAY
           ASSESSMENT

     March 2006   A-07-06-26009



   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   March 24, 2006                                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Independence Day Assessment (A-07-06-26009)

        OBJECTIVE
        Our objective was to determine whether the Social Security Administration’s (SSA)
        Independence Day Assessment (IDA) procedures are effective for deciding when
        Disability Determination Services (DDS) are ready to implement the electronic folder
        system of record under SSA’s electronic disability (eDib) initiative.

        BACKGROUND

        SSA’s initiative to implement an efficient paperless disability claims processing system,
        in which the large volume of documents traditionally stored in paper folders can be
        stored, viewed and processed electronically, is known as eDib. In September 2003,
        eDib became a high priority initiative for SSA when the Commissioner announced her
        long-term strategy to improve the disability claims process. The Commissioner
        envisioned eDib as a prerequisite to an improved disability claims process. 1 The main
        goal of eDib is to reduce the delays produced by organizing, mailing, locating, and
        reconstructing paper folders among all the disability claims processing components. All
        components involved in adjudicating disability claims will be affected by eDib—field
        offices, processing centers, DDSs, disability quality branches, and Office of Hearings
        and Appeals. Each component will work claims electronically by accessing and
        retrieving data and images collected, produced, and stored in an electronic folder (EF).

        To determine when a DDS is ready to implement the EF, SSA developed the following
        four-step IDA process.




        1
          Statement of the Honorable Jo Anne B. Barnhart, Commissioner of Social Security, Testimony Before
        the House Committee on Ways and Means, Social Security Subcommittee, September 25, 2003.
Page 2 - The Commissioner

1. The Assessment Visit is designed to identify issues that could prevent the DDS from
   processing claims in a fully electronic environment. The Assessment Visit tests the
   DDS’ new business process for processing claims electronically through a
   comprehensive comparison of the paper disability claims folder under the old
   business process with the new business processes for the EF.

2. Training verification to ensure that adequate training is completed by all EF users.

3. Record-keeping requirements certification for National Archives and Records
   Administration compliance.

4. A Validation Visit to ensure all critical discrepancies 2 between the paper claims
   folder and the EF were resolved. The validation visit results are used by SSA to
   decide whether the DDS can rely solely on the EF and begin to eliminate the old
   business process, including the paper claims folder.

Our review focused on the IDA certifications of the Mississippi and Illinois DDSs—the
first two DDSs certified by SSA to operate in a fully electronic environment. See
Appendix B for detailed information on the IDA process and Appendix C for information
on the scope and methodology of our review.

RESULTS OF REVIEW
We found that SSA’s IDA procedures were generally effective for deciding when DDSs
are ready to implement the EF. Specifically, SSA generally followed the IDA policies
and procedures to certify the Mississippi and Illinois DDSs as ready to process claims
electronically. Furthermore, issues that could potentially affect the outcome of the
disability decision and the completeness of the EF, referred to as critical discrepancies
by SSA, were resolved or alternate processes were implemented by SSA prior to the
certification of the Mississippi and Illinois DDSs.

However, we found that the IDA certification process could be strengthened.
Specifically, SSA needs to:

•   Maintain all documentation required by IDA policies and procedures to support the
    results of the IDA certification process; and

•   Resolve or schedule for resolution all computer system problems reported in the
    Change, Asset and Problem Reporting System at the time of the validation visit.

In addition, SSA should establish a schedule to permanently resolve temporary
workaround issues that existed after DDS certification. The permanent resolution of the
workaround issues will improve the efficiency of the EF.

2
  SSA defines a critical discrepancy as one that could affect the disability decision by producing an
incomplete EF.
Page 3 - The Commissioner

SSA’S IDA PROCESS
SSA has written policies and procedures for the IDA certification process, including the:

•     IDA Protocol, which is SSA’s detailed plan to ensure that the Agency documents its
      methodology and review results for determining a DDS’ readiness to operate in a
      fully electronic environment. The IDA process also supports the decision-making
      process for determining when the Agency can rely on the EF as the Agency’s official
      record. SSA considers the IDA Protocol a work-in-progress, and modifies and
      improves the policies and procedures as it gains experience from completed DDS
      certifications.

•     Independence Day Assessment Guide to Conducting the DMA (Document
      Management Architecture) Review Portion of IDA Assessment Visit and IDA
      Validation (IDA Guide), which provides the IDA Team with detailed, written guidance
      for conducting the Assessment and Validation Visits.

•     Guide to Preparing for an IDA Assessment Visit, which provides valuable information
      to assist DDSs in preparing for IDA certification.

    Did SSA             SSA generally followed its established IDA policies and procedures
    follow IDA          during the IDA certification processes at the Mississippi and Illinois
    policies and        DDSs. However, complete documentation was not always
    procedures?         maintained to support the results of the IDA process. Specifically:

•     Documentation did not exist to support the final resolution of five critical
      discrepancies identified during the Mississippi DDS’ Assessment Visit. We
      concluded that the issues were resolved, since non-resolution would have prevented
      the processing of disability claims in an electronic environment. However, IDA
      documentation did not show the specific corrective actions taken, but rather just the
      date the issues were resolved. SSA policy requires critical discrepancies to be
      documented, monitored, and tracked for resolution on an IDA Matrix. 3

•     Documentation did not exist to support SSA’s adherence to the validation testing
      sampling plan for both the Mississippi and Illinois DDS Validations. SSA
      documented the individual cases sampled in Mississippi and Illinois. However, SSA
      did not maintain documentation on how cases were sampled during the second
      week of the Mississippi DDS’ Validation. In addition, SSA did not maintain




3
    SSA, IDA Protocol (Revised June 2005), p. 6.
Page 4 - The Commissioner

      documentation that explained why certain cases were excluded from the Illinois
      DDS’ sampling process. SSA policy requires documentation of the sampling
      process and explanations for excluding cases from sampling. 4

•     Documentation did not exist to show how critical discrepancies identified during the
      Mississippi and Illinois DDS’ Validation testing were resolved. The summary reports
      for both the Mississippi and Illinois DDSs did not provide sufficient information to
      determine how the system errors were resolved. SSA policy states that summary
      reports will provide a narrative description of how critical discrepancies that resulted
      in an incomplete EF were resolved. 5

The IDA Guide emphasizes the importance of clear, well-documented testing
procedures and results that support the recommendation to move a DDS to the
electronic processing of disability claims. After the experience gained from the
Mississippi DDS’ validation testing, SSA developed the IDA Collection System (IDACS)
to capture and maintain documentation of issues identified during validation testing.
Although IDACS was used during the Illinois DDS’ Validation, documentation did not
exist to show how critical discrepancies identified during the validation testing were
resolved. Adequate documentation is necessary to ensure that all relevant information
is provided to decision makers for their consideration in allowing a DDS to move to the
EF.
                   In general, we found the IDA policies and procedures were sufficient
  Were IDA         to determine that the Mississippi and Illinois DDSs were ready to
  policies and     process claims in an electronic environment. Specifically, the
  procedures       policies and procedures were designed to identify issues that could
  sufficient?      prevent the DDS from processing claims in a fully electronic
                   environment and to ensure that the EF is complete.

However, we identified an area that should be reviewed as part of the IDA process to
further ensure DDSs are ready to process disability claims in an electronic environment.
Specifically, the IDA process should include a review of significant system problems
identified and tracked in SSA’s Change, Asset, and Problem Reporting System
(CAPRS) for each DDS.

SSA’s IDA procedures do not require the review or resolution of significant computer
system problems identified in CAPRS prior to certifying the DDS. CAPRS identifies,
tracks, and documents the resolution of the DDS’ computer system problems.
Significant computer system issues reported through CAPRS, if left unresolved, could
negatively affect the DDS’ ability to process disability claims electronically.

During our review of issues reported through CAPRS, we found that the Mississippi and
Illinois DDSs had significant computer system issues identified prior to certification that
4
 Guide to Conducting the DMA Review Portion of IDA Assessment Visit and IDA Validation (July 2005),
page 7.
5
    IDA Protocol (Revised June 2005), page 16.
Page 5 - The Commissioner

remained unresolved after certification. For example, nearly 3 months before
Mississippi DDS’ certification, CAPRS indicated the computing capacity of the
minicomputer running the eDib applications was insufficient causing a significant
slowdown in the processing of disability claims. Because IDA procedures do not require
the resolution of significant system problems identified in CAPRS, SSA did not upgrade
Mississippi’s computer system until after the DDS was certified. The Illinois DDS
experienced similar computer system problems and their computer system was also
upgraded after certification. Based on the Mississippi and Illinois DDS’ experiences,
SSA has taken steps to ensure adequate computing capacity is available for processing
the EF workloads at other DDSs. However, IDA procedures were not changed to
ensure future significant system problems identified in CAPRS were resolved or
scheduled for resolution prior to certifying a DDS.

WORKAROUND ISSUES
During our review, we identified issues that impact the efficiency of the EF, referred to
by SSA as workaround issues. Workaround issues occur when a problem in the EF
cannot be immediately resolved. So, an alternate procedure is temporarily established
to allow the electronic claims process to continue. SSA records workaround issues and
their resolutions on an IDA Matrix. We found that, after certification, the Mississippi and
Illinois DDSs continued to use 10 and 23 workaround solutions implemented during the
early stages of IDA testing, respectively. Workaround issues identified in the Validation
stage of IDA testing are not recorded on this matrix. In addition, we found the IDA
matrix was not periodically updated to reflect changes that eliminated the need for some
of the workarounds. Therefore, we could not determine the total number of unresolved
workaround issues for the DDSs.

Workaround solutions are cumbersome and adversely affect the efficiency of eDib
because they require performance of additional steps—often outside the EF. For
example, the Illinois DDS is unable to view the quality assurance unit’s comments for
about 7 percent of the electronic cases processed. These comments are part of the
DDS’ internal quality assurance process and are critical to the accuracy of disability
determinations. The Illinois DDS established a process where the quality assurance
unit documents their comments outside the EF and uses email notifications to alert
disability examiners of cases that need attention. This adds time to the process and
could affect the disability decision, if the workaround is not followed.

Another workaround example is the certified DDS’ inability to record complete dates on
electronic forms (eForms), electronic versions of SSA forms used for disability claims.
The dates typed into an eForm do not convert properly when added to the EF.
Approximately, 75 percent of all electronic disability claims processed by certified DDSs
include an eForm and could be affected by this problem. As a workaround solution,
users must use a calendar function to select the date, which adds time to the process.
Using this workaround, the date converts properly and is added to the EF. SSA
informed us that it is working with the software vendor to correct this problem.
Page 6 - The Commissioner

SSA’s rollout of eDib requires it to focus its resources on ensuring all DDSs implement
an operational EF. As a result, SSA cannot focus on perfecting the EF in each certified
DDS and workaround solutions must be used to keep eDib operational. Therefore, SSA
needs a comprehensive plan to ensure workaround issues are identified and resolved
timely. Although each DDS recorded workaround issues on an IDA Matrix, SSA did not
have a comprehensive plan to ensure all workaround issues were resolved timely. SSA
stated that it is developing a comprehensive plan that includes a list of all workaround
issues in place at each certified DDS. This list will be used to monitor the resolution of
workaround issues. In addition, SSA is developing a framework to prioritize new
workaround issues. Finally, SSA has established a workgroup to oversee the resolution
of workaround issues.

BEST PRACTICES

For the Illinois DDS, the success of the IDA certification process was due, in part, to
pro-active practices implemented by the DDS prior to the IDA Validation Visit. For
example, communication among Illinois DDS, the Chicago Regional Office, and SSA
officials on the progress and problems of eDib implementation played a crucial role in
keeping the DDS on schedule and organized. Also, extensive testing of the EF by
users before the IDA Validation Visit was important to facilitate the testing process.
Illinois also found that adequate training and the continued monitoring of the EF to
ensure quick resolution of problems identified after certification played an important role
in successfully implementing eDib.

SSA should share the best practices of the Illinois DDS, as well as the best practices of
other certified DDSs, with DDSs that have not yet been certified. See Appendix D for
Illinois DDS’ best practices.

CONCLUSION AND RECOMMENDATIONS
SSA’s IDA policies and procedures were generally effective to decide when the
Mississippi and Illinois DDSs were ready to implement the EF. Issues that could affect
the outcome of the disability decision and produce an incomplete EF were identified
during the IDA process and were either resolved or a workaround was put in place prior
to the certification of the Mississippi and Illinois DDSs. However, we identified areas
where the IDA process could be strengthened. Furthermore, SSA needs to proactively
resolve the EF workaround issues so the full efficiencies of the EF can be realized.
Page 7 - The Commissioner

We recommend that SSA:

1. Maintain required documentation that clearly outlines the actions taken to resolve all
   significant issues identified during the IDA process and documentation that clearly
   reflects adherence to the IDA sampling process.

2. Resolve or schedule for resolution computer system problems reported in the
   CAPRS at the time of the validation visit.

3. Continue efforts to develop a comprehensive workaround resolution plan that
   includes prioritizing issues, establishing planned resolution dates for all workaround
   issues, and monitoring issues that exceed their planned resolution date.

4. Periodically distribute the best practices of certified DDSs to DDSs preparing for the
   IDA process.

AGENCY COMMENTS

SSA agreed with all of our recommendations. The full text of SSA’s comments is
included in Appendix E.




                                         S
                                         Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – IDA Process

APPENDIX C – Scope and Methodology

APPENDIX D – Illinois DDS’s Best Practices

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
BPA     Business Process Analysis
CAPRS   Change, Asset, and Problem Reporting System
DDS     Disability Determination Services
DMA     Document Management Architecture
eDib    Electronic Disability
EF      Electronic Folder
eForm   Electronic Form
GAO     Government Accountability Office
IDA     Independence Day Assessment
IDACS   Independence Day Assessment Collection System
NARA    National Archives and Records Administration
SSA     Social Security Administration
                                                                                  Appendix B

IDA Process
The Independence Day Assessment (IDA) process is a four-step evaluation specifically
designed to support the decision-making process for when the Social Security
Administration (SSA) can rely solely on the Electronic Folder (EF) as the Agency’s
official record.

The Assessment Visit represents the first step of the IDA process. These on-site visits
by the SSA IDA Team are designed to identify all issues that could prevent a
component from processing cases in a fully electronic environment. The Assessment
Visit is comprised of two parts: a Business Process Analysis (BPA) and a Document
Management Architecture (DMA) review.

In the BPA, the Disability Determination Services (DDS) is asked to provide a written
electronic business process to the IDA Team prior to the Assessment. In addition, the
DDS is asked to identify any issues that affect its ability to work in an electronic
environment. During the Assessment Visit, DDS staff provides a comprehensive walk-
through of the business process, including a step-by-step demonstration. Issues
identified during the analysis are documented, monitored, and tracked for resolution on
a document called the IDA Matrix.

The DMA Review is a comprehensive review of claims folders where the paper claims
folder is compared to the electronic claims folder. This testing detects discrepancies
between information in the paper claim’s folder and information in the EF and includes
the review of contractor scanned paper documents, component casually scanned paper
documents, front-end capture system/fax-in process documents, and electronic medical
evidence documents. Issues and discrepancies identified in this review are
documented, monitored, and tracked for resolution on the IDA Matrix.

Issues on the IDA Matrix are reviewed to determine their impact on the component’s
ability to operate in an electronic environment. Issues identified as “critical” are
categorized in three ways:

    •   Showstopper Issues are problems that affect the outcomes of disability decisions
        and are considered adjudicatively significant (e.g., missing documents);
    •   Paper Issues are related to specific case types that are excluded from electronic
        processing; 6 and




6
 Examples of case types that remain as paper claims are claims for childhood disability benefits and
age 18 redeterminations (Modernized Supplemental Security Income Claims System).


                                                  B-1
   •   Workaround Issues occur when the current procedure or system does not allow a
       task to be accomplished efficiently, but alternate procedures, policies, or system
       functions allow paper source documents to be discarded and the EF to serve as
       the official Agency record.

Unresolved Showstopper Issues and Paper Issues require the retention of paper source
documents and the maintenance of the paper folder as the Agency’s official record.
Unresolved Showstopper Issues prevent the component from becoming IDA certified.
The IDA Team works with the component to resolve issues identified on the IDA matrix.
All Showstopper Issues must be resolved before the Validation is scheduled.

Training is the second step of the IDA process. SSA developed a training matrix for
each component involved in the electronic disability process. The matrices identify the
training that should be conducted, who should receive the training, who should conduct
the training and how the training should be conducted. SSA provides access to the
required training materials. However, SSA depends on the individual components to
ensure that all of the component's employees receive the required training. During the
IDA process, the IDA Team asks component management if training was completed for
all required employees. SSA also uses the validation testing as a tool for determining if
adequate training was completed.

Meeting National Archives and Records Administration (NARA) requirements is the
third step of the IDA process. SSA has prepared a document certifying that SSA's DMA
used in the electronic disability (eDib) process is in compliance with the NARA
standards set forth in Title 36 of the Code of Federal Regulations, Part 1234. We did
not audit the content of the certification document, and nothing has come to our
attention to indicate the systems did not meet the NARA recordkeeping requirements.

Validation is the fourth and last step of the IDA process. This step serves as a “go/no-
go” decision point to determine if the Agency can rely solely on the EF as the Agency’s
official record and begin to eliminate paper source documents. The Validation ensures:

   •   Showstopper issues have been resolved;
   •   The computer system is working as expected;
   •   All components can access the EF; and
   •   EFs are complete.

Validation reviews focus on identifying discrepancies between the paper folder and the
EF. During the Validation, the IDA Team documents all findings where the EF differs
from the paper folder and identifies the type and cause of each discrepancy. Issues
that could affect the disability decision by producing an incomplete EF (critical issues)
must be resolved before the DDS proceeds to a fully electronic process. Once the
Validation is complete and critical issues are resolved, the IDA team recommends
certification of the DDS to process disability claims electronically, making the EF the
Agency’s official record (i.e., IDA certified).



                                           B-2
                                                                       Appendix C

Scope and Methodology
We evaluated the Social Security Administration’s (SSA) Independence Day
Assessment (IDA) procedures established to determine when Disability Determination
Services (DDS) are ready to implement the electronic folder system of record under
SSA’s electronic disability (eDib) initiative. Our evaluation focused on SSA’s
establishment and adherence to adequate policies and procedures that would ensure all
material deficiencies (ones that would affect the outcome of the disability decision) are
corrected before a DDS is certified to operate in a paperless environment. We limited
our review to the evaluation of the lDA process at the Mississippi and Illinois DDSs, the
first two DDSs certified as ready to operate in a paperless environment.

To accomplish our objectives, we:

•   Reviewed the policies and procedures related to the IDA certification process,
    including: (1) SSA’s IDA Protocol that outlines the steps SSA takes to document the
    decision to certify a DDS; (2) SSA’s Program Operations Manual System sections
    related to the policy, process and procedure changes made during the Agency’s
    transition from a paper to an electronic environment; and (3) National Archives and
    Records Administration regulations for Electronic Records Management.

•   Reviewed SSA IDA certification schedules, training requirements for each
    component involved in the electronic disability process, and other information
    disseminated by SSA to assist DDSs in preparing for IDA certification.

•   Reviewed SSA documentation of the IDA process for the Mississippi and Illinois
    DDSs, such as documents that tracked problems identified and corrective actions
    taken, results of Validation testing, including detailed information for each case
    review as recorded in SSA’s IDA Collection System, Changed Asset and Problem
    Reporting System tickets used to report and track the resolution of SSA systems
    issues, and SSA’s eDib Systems Security Accreditation package.

•   Discussed the IDA certification process with members of the IDA task force.

•   Obtained information from the Mississippi and Illinois DDSs regarding their
    experiences with the IDA certification process.

We performed our fieldwork in the Kansas City, Missouri, Office of Audit, SSA
Headquarters in Baltimore, Maryland, and the Illinois DDS in Springfield, Illinois, from
May through October 2005. We conducted this evaluation in accordance with the
Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency.
                                                                     Appendix D

Illinois DDS’s Best Practices
The Illinois Disability Determination Services (DDS) was very proactive during their
rollout of the electronic disability initiative, developing their own validation testing
process to ensure problems with the Electronic Folder (EF) were identified as quickly as
possible. This proactive approach contributed to the Illinois DDS’ successful
implementation of the EF. The Illinois DDS Administrator provided a list of "Best
Practices" that could assist other DDSs as they prepare for the Independence Day
Assessment (IDA). The following are some of the best practices.

Ensure adequate communication among everyone involved before and during
IDA validation testing.
   • Early identification of one individual to act as a "Coordinator" of the project and
      have all aspects of the IDA certification process flow through this individual.
   • Assemble a core team of managers from all areas of the DDS that meet regularly
      to assess rollout progress and plan next steps.
   • Conduct bi-weekly meetings that include DDS supervisors and support staff
      supervisors.
   • Inform all DDS staff of progress with testing and moving forward in the paperless
      process.
   • Maintain a problem log and communicate issues to the legacy contractor (i.e.,
      systems contractor) on a regular basis.

Conduct extensive testing before the IDA Validation Visit, ensuring experienced
users are involved.
   • Set up an in-house validation process as soon as possible.
   • Use frontline supervisors as validation reviewers.
   • Include the expertise of the primary users of the legacy system functions, and do
      not rely solely on computer systems staff to test the functionality.
   • Include primary users in testing and in formulating changes to the business
      process.

Ensure all users receive adequate training.
  • Train users in cross-component functions in the legacy system.
  • Train newly hired employees to work only in the paperless environment.
  • Medical Consultant training should take place in small sessions with adjudicative
     services “resource” people involved during each training session.
  • Create desk guides for users and incorporate the guides into training.
  • Enlist the talents of staff to serve as resource people in their area.




                                          D-1
System Efficiency
   • Monitor processing capacity on the minicomputer and on the various Windows
     servers and workstations.

Post Certification Activities
  • Daily conference calls with Regional Office staff, DDS staff, and Area Directors
      offices to identify paperless problems immediately to facilitate early resolution.
  • Enlist the assistance of Area Directors’ office staff and Field Office supervisors to
      act as onsite liaisons at the DDS to help resolve problems of EF transmissions.
  • Conduct a post IDA certification review in addition to the IDA Cohort Review.
      The Cohort Review is conducted immediately after the DDS is certified to confirm
      that claims transfer properly from one component to the next, the EF contains all
      required forms and information, and that EFs are not being converted to paper
      claims files.




                                           D-2
                  Appendix E

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      March 15, 2006                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s
           Independence Day Assessment” (A-07-06-26009)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report are
           attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Comments




                                                        E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S INDEPENDENCE DAY
ASSESSMENT” (A-07-06-26009)

Thank you for the opportunity to review and provide comments on this OIG draft report
concerning the Social Security Administration’s (SSA) Independence Day Assessment (IDA)
certification process for determining when a disability processing component is ready to
implement fully electronic disability case processing. The OIG report provides a comprehensive
account of the IDA certification process, and it concludes that SSA has established an effective
process for ensuring a component’s readiness to operate in an electronic environment. We
believe our actions described below are responsive to the recommendations contained in this
OIG report and will enhance the IDA certification process.

Recommendation 1

Maintain required documentation that clearly outlines the actions taken to resolve all significant
issues identified during the IDA process and documentation that clearly reflects adherence to the
IDA sampling process.

Comment

We agree. Lessons learned when initially applying the IDA certification process in Mississippi
and Illinois have led to more extensive documentation of the IDA certification process in
subsequent States. For example, during IDA validation for Missouri, we were able to provide
OIG audit staff a preview of the new, improved version of the tool that we used to document
validation findings for Missouri.

In addition, the SSA eDib Management System has been expanded to include IDA certification
documentation, thereby assisting all SSA components involved in IDA certification by gathering
information into one repository.

Recommendation 2

Resolve or schedule for resolution computer system problems reported in the Change, Asset, and
Problem Reporting System (CAPRS) at the time of the validation visit.

Comment

We agree. Actions are underway to address the intent of this recommendation. CAPRS is
designed to be a problem reporting and resolution repository for all information technology
issues. In addition, a review of outstanding CAPRS issues has been incorporated into the IDA
certification process. As a secondary level of control, IDA unresolved issues affecting
electronic processing are now incorporated in the IDA Matrix, an IDA certification process tool
for documenting, monitoring, and resolving IDA certification process issues. Such unresolved
computer system issues are monitored throughout the IDA certification process.



                                               E-2
Recommendation 3

Continue efforts to develop a comprehensive workaround resolution plan that includes
prioritizing issues, establishing planned resolution dates for all workaround issues, and
monitoring issues that exceed their planned resolution date.

Comment

We agree. Recognizing the impact of workaround issues on productivity and efficiency, we
have documented and tracked them in order to facilitate their timely resolution. We have
developed a multifaceted strategy for addressing workaround issues which includes the
following actions.

   •   We have established a workgroup to address post-IDA certification issues that have
       arisen as more States have received IDA certification. The workgroup is developing a
       framework for assessing the criticality of such new issues and has oversight
       responsibility for resolving workaround issues.
   •   The National IDA Team has developed a comprehensive list of all issues identified in
       IDA certification process visits to date. The team monitors such issues and works with
       the appropriate SSA components to facilitate resolution of all IDA issues, including
       workaround issues. As part of this effort, the team is developing an accessible database
       format to house the National IDA Matrix.
   •   Where feasible, we continue to immediately address specific workaround issues as they
       arise. For example, we have resolved various workaround issues through enhanced
       functionality included in new software releases or through policy instructions.
   •   We plan to institute a series of national SSA cross-component conference calls that will
       focus on IDA certification process best practices, including best practices concerning
       resolution of workaround issues.

Recommendation 4

Periodically distribute the best practices of certified DDSs to DDSs preparing for the IDA
process.

Comment

We agree. As noted in the comments for recommendation 3, we are planning to institute
national conference calls that will include sharing of IDA certification best practices. In
addition, we will regularly update the National IDA Website to provide easy access to tips and
best practice information from SSA offices throughout the country (including links to SSA
Regional websites, IDA checklists and other tools). Business process documents for States that
have started or completed the IDA process are already available on the National IDA Website
for new States to use as they prepare and develop their own electronic business process.




                                                E-3
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division (816) 936-5591

   Kenneth Bennett, IT Specialist, Kansas City Audit Division (816) 936-5593

Acknowledgments

In addition to those named above:

   Carol Cockrell, Senior Evaluator

   Deborah Taylor, Auditor-In-Charge

   Cheryl Robinson, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-06-26009.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
